                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A-09070060                                                                        Page 1 of 1



         We received a series of allegations 1 regarding the subject, 2 a PIon several NSF proposals. 3 The
         allegations focused on apparent misstatements and inaccuracies in the subject's NSF proposals.

         In order to fully evaluate the apparent problems, we wrote to the subject to obtain specific
         information regarding his biosketches and publication record. After receiving and reviewing the
         information the subject provided, as well as other information we collected,4 we determined that
         the subject had not materially misrepresented any information in the proposals. However, in
         closing out this matter, we sent the subject a letter setting forth the concerns raised, and strongly
         suggesting that he take care to ensure that any future proposals are complete and accurate.




NSF OIG Fonn 2 (11102)
